UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1741
Richard W. Williams
Petitioner - Appellant
v.
Sherie Komeman, Warden
Respondent - Appellee
Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-cv-00724-HFS)
JUDGMENT
Before BENTON, SHEPHERD, and ERICKSON, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed. The motion to
proceed on appeal in forma pauperis is denied as moot.
October 06, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1741

Page: 1

Date Filed: 10/06/2020 Entry ID: 4963188

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eaglcton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Cans
Clerk of Court
October 06, 2020

Mr. Richard W. Williams
WESTERN MISSOURI CORRECTIONAL CENTER
307771
609 E. Pence Road
Cameron, MO 64429-0000
RE: 20-1741 Richard Williams v. Sherie Komeman
Dear Mr. Williams:
Enclosed is a copy of the dispositive order in the referenced appeal. Please note that
FRAP 40 of the Federal Rules of Appellate Procedure requires any petition for rehearing to be
filed within 14 days after entry of judgment. Counsel-filed petitions must be filed electronically
in CM/ECF. Paper copies are not required. This court strictly enforces the 14 day period. No
grace period for mailing is granted for pro-se-filed petitions. A petition for rehearing or a
motion for an extension of time must be filed with the Clerk's office within the 14 day period.
Michael E. Gans
Clerk of Court
NDW
Enclosure(s)
cc:

Mr. Patrick Joseph Logan
Ms. Paige A. Wymore-Wynn
District Court/Agency Case Number(s): 4:19-cv-00724-HFS

Appellate Case: 20-1741

Page: 1

Date Filed: 10/06/2020 Entry ID: 4963188

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1741
Richard W. Williams
Appellant
v.
Sherie Komeman, Warden
Appellee

Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-cv-00724-HFS)
ORDER
The petition for rehearing by the panel is denied.
December 21, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1741

Page: 1

Date Filed: 12/21/2020 Entry ID: 4986957

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
RICHARD W. WILLIAMS,
Petitioner,

)
)
)
)

)

v.

SHERIE KORNEMAN,
Respondent.

Case No. 19-00724-CV-W-HFS-P

)
)
)
)

ORDER
Petitioner is a convicted state prisoner and filed this pro se matter pursuant to 28 U.S.C.
§ 2254. He challenges his conviction and sentences for murder in the first degree and armed
criminal action, which were entered in the Circuit Court of Buchanan County, Missouri. For the
reasons set forth below, this case is DISMISSED and a certificate of appealability is DENIED. 1
I.

Background2
In the underlying criminal case, Williams was charged with one count of
murder in the first degree and one count of armed criminal action. Williams was
convicted of both offenses following a jury trial and sentenced to life in prison
without the possibility of parole for murder in the first degree and to a consecutive
term of thirty years for armed criminal action. His convictions were affirmed by
this Court in case number WD73962. The memorandum accompanying our order
affirming Williams’s convictions recited the following facts from the underlying
criminal case:
On May 4, 2010, [Williams] met John Joslin through his
friend Alonzo Teague. [Williams], Joslin, and Teague spent the
majority of the day in St. Joseph, Missouri, drinking and buying
and smoking crack. At the time, [Williams] was living at Budget
Inn. When Joslin asked [Williams] to be his roommate in order to

1 Upon of review of the record and the law, the Respondent’s position is found to be persuasive. Portions
of Respondent’s brief are adopted without further quotation designated.
2 “[F]ederal habeas courts must make as the starting point of their analysis the state courts’ determinations
of fact . . . .” Williams v. Taylor, 529 U.S. 362, 387 (2000). “[A] determination of a factual issue made by a State
court shall be presumed to be correct. The applicant shall have the burden of rebutting the presumption of
correctness by clear and convincing evidence.” 28 U.S.C. § 2254(e)(1). In this case, Petitioner fails to rebut any of
the state court’s determination of the facts with clear and convincing evidence. Accordingly, the Court adopts
without alteration the facts as set out by the Missouri Court of Appeals in the affirmance of the denial of post­
conviction relief, noting that Petitioner did not challenge the sufficiency of the evidence on direct appeal. Doc. 11-8
at 4-5.

Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 1 of 16

help Joslin pay the bills, [Williams] agreed. [Williams] retrieved
his belongings from Budget Inn and rode with Teague and Joslin to
buy more crack from Joslin’s dealer. The three then went to
Joslin’s home to smoke the crack they purchased. Teague left
Joslin’s home late that evening. On May 5, 2010, Joslin was found
dead in his home from multiple stab wounds. Later that evening,
Police arrested [Williams] and charged him with the murder of
Joslin. [Williams] admitted to killing Joslin but claimed he did so
in self defense after Joslin sodomized him.
After this Court issued its mandate in the direct appeal, Williams timely
filed a pro se motion for post-conviction relief. Post-conviction counsel was
appointed and filed an amended motion raising some of Williams’s pro se claims
in addition to new claims. An evidentiary hearing was held at which the motion
court heard testimony from Williams and his trial counsel. The motion court
denied Williams’s post-conviction claims.
Williams appealed, arguing that the amended motion filed by his
appointed counsel was untimely. The State agreed, and this Court remanded the
case to the motion court for an abandonment inquiry. Williams v. State, 503
S.W.3d 301 (Mo. App. W.D. 2016).
Before the motion court could conduct its abandonment inquiry, Williams
waived the claims contained in the amended motion and requested the motion
court “proceed on his pro se motion for post-conviction relief.” The motion court
thereafter issued findings of fact and conclusions of law denying the claims
asserted in the pro se motion.
Doc. 11-8 at 4-5 (footnotes omitted).
After the motion court’s ruling, Petitioner sought post-conviction relief under Missouri
Supreme Court Rule 29.15, the denial of which was affirmed on appeal. Doc. 11-8. Further
facts are set forth as necessary.
II.

Standard
State prisoners who believe that they are incarcerated in violation of the Constitution or

laws of the United States may file a petition for a writ of habeas corpus pursuant to 28 U.S.C.
§ 2254.

Before doing so, petitioners must exhaust their state remedies.

See Coleman v.

Thompson, 501 U.S. 722, 732 (1991).
“[H]abeas corpus is a guard against extreme malfunctions in the state criminal justice
systems, not a substitute for ordinary error correction through appeal.” Harrington v. Richter,
562 U.S. 86, 102-03 (2011) (internal quotation and citation omitted). This Court’s review of the
v

petition for habeas corpus is limited by the Antiterrorism and Effective Death Penalty Act
2

Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 2 of 16

(“AEDPA”), 28 U.S.C. § 2254. Id. at 97. AEDPA “bars relitigation [in federal court] of any
claim adjudicated on the merits in state court, subject only to the exceptions in §§ 2254(d)(1) and
(2).” Harrington, 562 U.S. at 98. Accordingly, a state habeas petitioner is not entitled to relief
unless the state court proceedings:
(1) resulted in a decision that is contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. §§ 2254(d).
As to § 2254(d)(1), a state court violates the “contrary to” clause if it “applies a rule that
contradicts the governing law set forth” by the Supreme Court or if the state court “confronts a
set of facts that are materially indistinguishable from a decision of [the] Court and nevertheless
arrives at a [different] result.” Williams v. Taylor, 529 U.S. 362, 406 (2000). A state court
violates the “unreasonable application” clause of § 2254(d)(1) if it “identifies the correct
governing legal rule from [the Supreme] Court’s cases but unreasonably applies it to the facts of
the particular state prisoner’s case.” Id. at 407. “It is not enough for us to conclude that, in our
independent judgment, we would have applied federal law differently from the state court; the
state court’s application must have been objectively unreasonable.” Flowers v. Norris, 585 F.3d
413, 417 (8th Cir. 2009) (citation omitted).
As to § 2254(d)(2), “a petitioner must show that the facts underlying the claim would be
sufficient to establish by clear and convincing evidence that but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the underlying offense.” Perry v.
Kemna, 356 F.3d 880, 889 (8th Cir. 2004) (internal quotation omitted). A state court’s factual
determinations are presumed correct and will stand unless the petitioner rebuts this presumption
with clear and convincing contrary evidence. 28 U.S.C. § 2254(e)(1); Grass v. Reitz, 749 F.3d
738, 743 (8th Cir. 2014). Additionally, federal courts afford great deference to a state court’s
credibility findings. Smulls v. Roper, 535 F.3d 853, 864 (8th Cir. 2008) (en banc).
III.

Analysis
Petitioner brings ten grounds, six of which are procedurally defaulted. For ease of

analysis, the claims are addressed out of order.
3
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 3 of 16

A. Ground One: Ineffective Assistance of Counsel regarding Venue
Petitioner contends that his counsel was ineffective for failing to seek a change of venue.
To prevail on a claim of ineffective assistance of counsel, a habeas petitioner must show that: (1)
“counsel’s representation fell below an objective standard of reasonableness”; and (2) “the
deficient performance prejudiced the defense.” Strickland v. Washington, 466 U.S. 668, 687,
688 (1984). “The first prong requires a showing ‘that counsel made errors so serious that
counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.’” White v. Dingle, 757 F.3d 750, 752 (8th Cir. 2014) (quoting Strickland, 466 U.S.
at 687). “The second prong requires a showing that ‘there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the proceeding would have been different.’” Id.
at 753 (quoting Strickland, 466 U.S. at 694).
“[Wjhen reviewing an ineffective-assistance-of-counsel claim, ‘a court must indulge a
strong presumption that counsel’s conduct falls within the wide range of reasonable professional
assistance.’” Woods v. Donald, 135 S.Ct. 1372, 1375 (2015) (quoting Strickland, 466 U.S. at
689).

“Establishing that a state court’s application of Strickland was unreasonable under

§ 2254(d) is all the more difficult.” Harrington v. Richter, 562 U.S. 86, 105 (2011). “The
standards created by Strickland and § 2254(d) are both ‘highly deferential,’ and when the two
apply in tandem, review is ‘doubly’ so.” Id. (internal citations omitted). To grant relief under
§ 2254, this Court must conclude that the state court unreasonably applied the Strickland test or
that, in reaching its conclusion regarding the performance of Petitioner’s attorney, it made
unreasonable factual conclusions. Gabaree v. Steele, 792 F.3d 991, 996 (8th Cir. 2015) (citing
Harrington, 562 U.S. at 131 (additional citation omitted)).
Here, the Missouri Court of Appeals noted the Strickland standard and analyzed the claim
in part as follows:
Williams testified that he told trial counsel that he was concerned about
getting a fair trial in Buchanan County based on the media coverage of his case.
According to Williams, trial counsel told him “the Judge wouldn’t let us get it
moved to Kansas City, and that if they went to another county, that the county
they would send to [sic] would be more racist than the county that I was already
in.” Trial counsel confirmed that she discussed with Williams whether filing for a
change of venue was “strategically wise.”
In its findings of fact and conclusions of law, the motion court found that
the filing of a motion for change of venue was discussed with Williams, “but such
4
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 4 of 16

decisions are trial strategy and therefore not subject to attack if reasonable.
Nothing in the record indicates otherwise.” The motion court denied the claim.
“A change of venue is required when it is necessary to assure the
defendant a fair and impartial trial.” Patterson v. State, 467 S.W.3d 395, 404 (Mo.
App. E.D. 2015) (citing State v. Deck, 994 S.W.2d 527, 532 (Mo. banc 1999)).
“In assessing the impact of potentially prejudicial publicity on prospective jurors,
the critical question is not whether they remember the case, but whether they have
such fixed opinions regarding the case that they could not impartially determine
the guilt or innocence of the defendant.” Id. (citation omitted). “The mere
existence of pretrial publicity does not automatically require a change of venue.”
Id. (citation omitted). “A decision not to seek a change of venue demonstrates no
incompetence by counsel unless it is manifestly wrong.” Id. (citation omitted).
Here, both Williams and trial counsel testified that they discussed seeking
a change of venue. Williams testified that trial counsel believed the case would
not be moved to Kansas City and that a change of venue would risk a transfer to a
more challenging jurisdiction. It cannot be said that this strategy was
unreasonable. See Clouse, 964 S.W.2d at 864-65 (finding that “[t]he motion court
did not clearly err in determining that trial counsel was competent in that his
decision not to ask for a change of venue was reasonable trial strategy, and that
this decision was agreed to by the defendant”).
In addition, regardless of whether trial counsel’s failure to seek a change
of venue was reasonable trial strategy, Williams has failed to allege or prove
prejudice. Although Williams testified that his case received media coverage in
the St. Joseph media market, he presented no evidence that any of the jurors were
improperly influenced by the publicity. See Strickland, 466 U.S. at 694.
Doc. 11 -8 at 10-10 (footnotes omitted).
Given the record and thorough Strickland-based analysis, the state court’s determinations
did not result in “a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States” or in
“a decision that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” See 28 U.S.C. § 2254(d)(1) and (2); see also Cox v.
Norris, 133 F.3d 565, 573 (8th Cir. 1997) (holding that counsel’s decision not to seek change of
venue because he believed other counties were prone to harsher sentences was a tactical decision
and not outside of the range of professional competence).
Additionally, the Court finds that Petitioner cannot establish prejudice under Strickland
because of the overwhelming evidence of guilt at trial. 466 U.S. at 694. Specifically, a review
of the record includes, inter alia, that the following evidence was presented at trial: Defendant
was introduced to the victim by a mutual friend as the three spent the day consuming drugs and
alcohol. Doc. 11-13 at 11. At around 10 or 11pm, the mutual friend left the other two alone at
5
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 5 of 16

victim’s residence. Doc. 11-13 at 11. At some point during the next several hours, on May 5,
2010, Defendant stabbed the victim to death. Doc. 11-14 at 50.
An autopsy of the victim’s body determined that the cause of death was blood loss from
twelve to twenty stab wounds including to the right and left neck, right back of head, right
shoulder, right back of torso, right upper chest, and right lower chest. Doc. 11-13 at 103-04.
Crime scene photos depicted massive blood loss at the head and pillow of victim’s bed. Doc. 11 13 at 58. The victim’s body was found lying bedroom floor in a large pool of blood. Doc. 11-13
at 83. A toxicology report determined the victim had ingested alcohol, cocaine, and prescription
sleep medication. Doc. 11-13 at 102. The morning after the murder, Petitioner left the house on
foot and started walking to a bus station with the intention of getting a ride out of town. Doc. 1114 at 51. Petitioner was arrested across the street from the station in a friend’s car waiting for a
bus to Kansas City. Doc. 11-14 at 23; Doc. 11-13 at 120.
During the next several hours, Petitioner gave police two confessions that purport to
describe what occurred after the friend left Petitioner alone with the victim, both of which were
read aloud at trial. Doc. 11-14 at 26-29. The first confession explains that as the evening wore
on, the victim began to verbally and physically assault Petitioner, culminating in the victim
inserting his finger into Petitioner’s rectum, which immediately provoked the murder. Doc. 1114 at 26-29. When the interrogating officer discussed using a DNA test to confirm this detail,
the uninjured Petitioner began to waiver. Doc. 11-14 at 29
Two hours after his first confession, he gave another formal statement to the police
explaining that he had lied about the extent of the alleged sexual conduct. Doc. 11-14 at 38-39.
In this version, Defendant was forced to perform oral sex on the victim, who then went to bed.
Doc. 11-14 at 38-39. The confession goes on to explain that after standing over the sleeping
victim for several minutes and thinking that “if he woke up, he would make me do it to him
again,” Defendant stabbed the victim three times. Doc. 11-14 at 38.
Defendant’s testimony at trial presented yet another new account of the moments leading
up to the murder. Doc. 11-14 at 56-57. This third version differed from the second in that the
sleeping victim awoke when Defendant snuck into the bedroom. Doc. 11-14 at 56-57. The
testimony was that the victim, lying in bed, opened his eyes and then Defendant inflicted the first
stab wound. Doc. 11-14 at 50. While Defendant commented that victim had a particular “look”

6
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 6 of 16

in his eyes at this critical moment, he did not testify that the victim made any threatening
comments or gestures. Doc. 11 -14 at 50.
Defendant also gave testimony regarding his other options. He agreed that he could have
walked out the front door and escaped the alleged threat. Doc. 11-14 at 53. He testified that he
used his personal cell phone to call his friend six or seven times during the course of the evening
and that he called his sister after the murder to arrange bus transportation out of town. Doc. 1114 at 38, 49, 55. Finally, he confirmed that the victim had left him alone at the house for at least
half an hour. Doc. 11-14 at 52.
Based on the state court’s decision and a review of the record, Ground One is denied.
B. Ground Two: Ineffective Assistance of Counsel regarding Venire Panel
Petitioner alleges ineffective assistance of counsel concerning the racial composition of
the jury panel. Under Strickland, the Missouri Court of Appeals analyzed the claims as follows:
In Point III, Williams alleges that the motion court erred in denying his
claim that his trial counsel was ineffective for failing to object to the lack of racial
diversity in the jury pool.
In his pro se motion, Williams alleged that his trial counsel was
ineffective for failing to object to the lack of racial diversity of the venire panel
because none of the fifty prospective jurors “was of Hispanic or Latino, Asian,
African-American, Native American or other ethnic decent [sic].” Williams
further alleged that “[i]t is well known that St. Joseph, Mo. has a racial problem
that exist [sic] between blacks and whites in the community.” Williams claimed
that trial counsel “failed to use Batson law cases to object to the make-up of the
venire panel being all [Caucasians.” Williams did not allege in his is pro se
motion that he was prejudiced by a lack of racial diversity on the venire panel or
explain what trial counsel should have done differently.
During voir dire, trial counsel announced that “we would like to put it on
the record that there are no African-American jurors which creates an issue under
Batson. We wanted to put it on the record that there’s no constitutional issue [sic]
and there’s no diverse individual on the panel.”
Trial counsel made this record but did not seek any relief.
At the evidentiary hearing, trial counsel testified that the venire panel
included 45 to 60 individuals, which was typical for a murder trial in Buchanan
County. Trial counsel stated that the venire panel was “primarily Caucasian;
however, we did have other ethnicities.” Trial counsel was unable to recall the
ethnic makeup of the venire panel and testified that Williams raised no concern
about the diversity of the venire panel.
Williams testified that he was told by trial counsel that there would be
African-Americans on the jury, yet there were none in the venire. Williams
explained that he believed trial counsel should have objected because Buchanan
County is statistically only eighty-five percent white:
7
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 7 of 16

The makeup of the, according to the Buchanan County Census of
2013, there were 85 percent white and 5.9 percent black, or
African-American. There was 6 percent Native American or
Alaskan natives, and 1.1 percent Asian and 0.3 percent Pacific
islanders, 2.2 percent two or more races, and 5.8 percent were
Hispanics, and none of them was on my Jury, not one single other
nationality other than white.
“A criminal defendant does have a constitutional right to the unbiased
selection of a jury drawn from a cross-section of the community.” Ringo v. State,
120 S.W.3d 743, 746-47 (Mo. banc 2003) (citation omitted). “To establish a
prima facie violation of the fair cross-section requirement, the defendant must
show (1) that the group alleged to be excluded is a ‘distinctive’ group in the
community; (2) that the representation of this group in venires from which juries
are selected is not fair and reasonable in relation to the number of such persons in
the community; and (3) that this under-representation is due to systematic
exclusion of the group in the jury-selection process.” Id. at 747 (citation omitted).
“Unless it is shown that the difference between the percentage of the individuals
in the identifiable group and those within the venires as a whole is greater than
10%, a prima facie case has not been made.” Id. (citation omitted). “Even if [a
defendant’s] individual panel was underrepresented by [a certain community], ‘a
single panel that fails to mirror the makeup of the community is insufficient to
establish a prima facie case of systematic exclusion.’” Id. (citations omitted).
Williams admits that “there is an extremely high bar for challenging the
racial makeup of the jury, which [he] would be unable to meet with the
underlying record.” We agree. Williams alleged in his pro se motion only that his
own venire panel lacked racial and ethnic diversity. There was no evidence
presented at the evidentiary hearing about the ethnic composition of his venire
other than Williams’s unsupported allegation that there was no diversity on the
panel which was contradicted by trial counsel’s testimony that the venire “did
have other ethnicities.” Further, the record completely lacks evidence regarding
the racial or ethnic composition of other venires in Buchanan County. Without
alleging sufficient evidence to show that counsel could have made a meritorious
objection at trial, Williams cannot succeed on his ineffective assistance of counsel
claim. See Taylor v. State, 198 S.W.3d 636, 644 (Mo. App. S.D. 2006) (finding
that evidence as to the composition of a single venire panel is insufficient to show
that a meritorious objection could have been made by trial counsel and cannot
result in a finding of ineffective assistance of counsel). Point denied.
Doc. 11-8 at 12-14 (footnotes omitted).
Once again, given the record and thorough Strickland-based analysis, the state court’s
determinations did not result in “a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States” or in “a decision that was based on an unreasonable determination of the facts in
8
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 8 of 16

light of the evidence presented in the State court proceeding.” See 28 U.S.C. § 2254(d)(1) and
(2). See also Wharton-El v. Nix, 38 F.3d 372, 376 (8th Cir. 1994) (applying the above threefactor test). Further, as set out as to Ground One, Petitioner has not established prejudice under
Strickland. Ground Two is denied.
C. Ground Three: Ineffective Assistance of Counsel regarding Venire Panel
Petitioner alleges ineffective assistance of counsel concerning the “potentially hostile and
biased venirepersons” in the jury panel. Under Strickland, the Missouri Court of Appeals
analyzed the claims as follows:
In Point IV, Williams claims that the motion court erred in denying his
claim that his trial counsel was ineffective for failing to “take any action
regarding the six jurors who knew the prosecutor and his allies.”
During voir dire, six prospective jurors stated that they knew either the
prosecutor, someone who works for the prosecutor’s office, police detectives who
worked on the case, or other potential witnesses in the case. All six
veniremembers confirmed that they could be fair and impartial despite these
relationships and that they would evaluate the testimony of the witnesses they
knew in the same manner they would evaluate the testimony of other witnesses.
These six veniremembers were seated on the jury.
In his pro se motion, Williams alleged that his trial counsel was
ineffective for “allowing [six] potential hostile jurors on the jury panel.” At the
evidentiary hearing, trial counsel testified that she had discussed striking these six
jurors with Williams but noted that there was no basis to strike them for cause
because each had been sufficiently rehabilitated. Trial counsel further testified
that she and Williams concluded that “there were other jurors that he wanted off
more strongly than the jurors that knew various people.” Trial counsel explained
that “in every trial I had in Buchanan County, everyone on the venire panel knew
either a police officer or the prosecutor or the Judge or had some contact with the
Court in some way” and that Williams did not make any complaints to her about
the six jurors once the jury was seated.
The motion court denied this claim, finding that “[t]rial counsel testified
she discussed the venire panel with Movant as to who Movant felt most strongly
should be struck. Movant cannot claim error for his own decisions.”
“A defendant is entitled to a fair and impartial jury.” Brown v. State, 450
S.W.3d 450, 453 (Mo. App. W.D. 2014) (quoting Moore v. State, 407 S.W.3d
172, 175 (Mo. App. E.D. 2013)). “Each venireperson must be able to serve on the
jury with an open mind, free from bias and prejudice.” Id. (quoting Moore, 407
S.W.3d at 175). A prospective juror who is unable to be fair or impartial must be
stricken from the jury unless he or she is further questioned and is “rehabilitated
by giving unequivocal assurances of impartiality.” Id. (citations omitted). A
possibility of bias or prejudice is not enough; “instead, ‘[i]t must clearly appear
from the evidence that the challenged venireperson was in fact prejudiced.’” Id.
(citations omitted). “To succeed in his motion for post-conviction relief, Movant
9
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 9 of 16

must prove actual bias on the part of the venireperson.” Moore, 407 S.W.3d at
176 (citation omitted).
Williams did not allege, let alone prove, any actual bias on the part of any
of the six jurors. Although all six jurors had various levels of familiarity with the
prosecutor, prosecutor’s office, law enforcement, or other witnesses involved in
the trial, all six jurors stated that they could put aside these familiarities and weigh
the testimony of these witnesses in the same manner as they would the testimony
of the other witnesses. Because Williams has not shown that any of the six jurors
were unqualified to decide his case, his claim of ineffective assistance of counsel
must fail.
Doc. 11-8 at 14-16.
Once again, given the record and thorough Strickland-based analysis, the state court’s
determinations did not result in “a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States” or in “a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” See 28 U.S.C. § 2254(d)(1) and
(2); see also Williams v. Norris, 612 F.3d 941, 955 (8th Cir. 2010) (holding that Strickland claim
could not succeed because the petitioner could not show that juror was impermissibly biased,
that counsel’s failure to object to the juror was deficient performance, or that empaneling the
juror deprived the petitioner of a fair trial); United States v. Evans, 272 F.3d 1069, 1079 (8th Cir.
2001) (federal review is limited to abuse of discretion due to the substantial discretion given to
district courts in conducting voir dire, and a district court’s finding that a prospective juror can
put aside any pretrial opinion and render a verdict based upon the evidence will not be
overturned unless the error is manifest).

Additionally, as set out above, Petitioner cannot

establish prejudice. Ground Three is denied.
D. Ground Eight: Self-Defense Instruction
Petitioner contends that he is entitled to relief because the trial court denied the use of a
self-defense instruction.
As noted above, federal habeas actions are allowed “only on the grounds that [the
petitioner] is in custody in violation of the Constitution or laws or treaties of the United States.”
28 U.S.C. § 2254(a).

“[F]ederal courts are limited to deciding whether a state conviction

violated the federal Constitution or laws.” Schleeper v. Groose, 36 F.3d 735, 737 (8th Cir. 1994)
(citation omitted). “A federal court may not re-examine a state court’s interpretation of and
10
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 10 of 16

application of state law.” Id.', see also Carter v. Armontrout, 929 F.2d 1294, 1296 (8th Cir.
1991) (claims that do not reach constitutional magnitude cannot be addressed in a petition for
habeas corpus).
“A defendant has a due process right to a self-defense instruction if the evidence satisfies
the requirements of the applicable law on self-defense.” Lannert v. Jones, 321 F.3d 747, 754 (8th
Cir. 2003) (citing Woods v. Solem, 891 F.2d 196, 199 (8th Cir. 1989) (holding that “if [a
defendant] is entitled to a self-defense instruction under [state] law, the trial court’s refusal to
issue such an instruction violate[s] due process”). See also Crump v. Caspari, 116 F.3d 326, 328
(8th Cir. 1997) (petitioner did not show he had a reasonable belief he was in imminent danger of
unlawful force under Missouri law; therefore, “the refusal of a self-defense instruction did not
result in a miscarriage of justice or omission inconsistent with the demands of fair procedure.”).
Here, viewing the evidence in the light most favorable to Petitioner, the Missouri Court
of Appeals analyzed this claim extensively, as follows:
At trial, Appellant testified that, as the evening progressed, Joslin became
increasingly aggressive toward Appellant, choking him, picking him up, and
slinging him to the ground. Joslin’s increased aggression toward Appellant was
one of the reasons Teague left Joslin’s home. After Teague left, Joslin asked
Appellant if Appellant had any more money. When Appellant told Joslin that
he did not, Joslin called Appellant a lying “ n****r”, approached Appellant,
and began hitting him and saying “let’s fight.” Joslin then sat down in the
chair closest to the front door and continued to call Appellant derogatory names.
Appellant told Joslin he would leave, but Joslin told him “you still ain’t going
nowhere. You my n****r b***h now.”
While Joslin made a phone call, Appellant called a girl he had met to tell
her he had moved in with Joslin. When Joslin heard Appellant mention his
name, Joslin became angry, approached Appellant, grabbed him by the throat,
and hit him a couple of times. Appellant refused to fight and went into the
kitchen to light a cigarette off the stove. Appellant thought about sneaking out
the back door, but the door was locked from the inside and required a key to
get it open. Appellant then grabbed two knives from the kitchen, putting one in
his sock and the other in his belt. Appellant did not try to leave out the front
door because Joslin was sitting by it.
When he returned from the kitchen, Appellant heard Joslin on the phone
saying “Hey, man, you want to come over and get some of his black ass.” When
Joslin got off the phone, he told Appellant “F**k you, man, your ass is mines
tonight.” Joslin then went out the front door and appeared to walk over to the
next-door neighbor’s home. Appellant did not leave because he believed Joslin
might be outside the door waiting with the other person Joslin had just called
on the phone. While Joslin was gone, Appellant called Teague seven or eight
11
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 11 of 16

times and left voicemail messages telling Teague to come get him. Joslin
returned home thirty to forty-five minutes later.
Joslin again began to choke and hit Appellant, telling Appellant that he
would kill him. He then threw Appellant on the couch and told him to “sit your
ass down.” Joslin went over to the door and did something with the lock. He
then went into the bedroom and returned five minutes later, naked. He forced
Appellant into his bedroom and told Appellant to perform fellatio upon him.
Appellant initially refused, but Joslin hit him several times in the head.
Appellant eventually complied. Following the incident, Joslin ordered Appellant
to get out of the room. Appellant was sitting on the living room couch when
Joslin came to the doorway of the bedroom and told Appellant that he
would make Appellant do it again in the morning.
Appellant began pacing and crying. He went to the kitchen and got a
knife. He planned to go in to Joslin’s bedroom and tell him to leave him alone.
Appellant went in to Joslin’s bedroom. Joslin was laying on the bed with his
eyes shut. Appellant stood over him, crying. Joslin heard Appellant sniffling,
opened his eyes, and gave Appellant the same “look” he had given Appellant
when he had previously choked him. Appellant reacted by stabbing Joslin in the
chest with the knife. Joslin reached for and grabbed Appellant, so Appellant
stabbed him again. When Joslin attempted to stand up, he slouched down off
the bed and fell to the floor. Appellant remembers stabbing Joslin three times.
Joslin suffered from approximately twelve to twenty stab wounds.
After the stabbing, Appellant called a few family members requesting
they purchase him a bus ticket. Appellant then found the key to the back door
and fled from Joslin’s home. Police arrested Appellant sitting on a bench in front
of the YMCA across from the bus station.
After his arrest, Appellant gave two different statements to the police.
The first statement was similar to his testimony at trial but provided that
Appellant stabbed Joslin immediately after Joslin forced him into the bedroom,
made Appellant take off his clothes, and attempted to stick his fingers in
Appellant’s rectum. In his second statement, Appellant stated that portions of
his previous statement were untrue and indicated that Joslin had forced
Appellant to perform fellatio upon him. It further provided that, after returning
to the couch, Appellant got angry. He went and looked in at Joslin, who was
lying on the bed. He then went to the kitchen, got a knife, returned to the
bedroom, and stood over Joslin with the knife. Appellant got so angry that
“he snapped and stabbed [Joslin] in the neck.” Joslin sat up, yelled, and
tried to grab Appellant, so Appellant stabbed him again. At one point,
Appellant was on the bed stabbing Joslin. When Joslin tried to get off the bed,
he fell and slid off the bed onto the floor.

“[S]elf defense is a person’s right to defend himself or herself against
attack.” Fisher v. State, 359 S.W.3d 113, 118 (Mo. App. W.D. 2011) (internal
quotation omitted). Section 563.031.2 limits the justifiable use of deadly force
12
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 12 of 16

upon another person to situations where the actor reasonably believes that such
force is necessary to protect himself or another against, among other things,
death, serious physical injury, or a forcible felony. Id. at 118-19. In situations
involving the use of deadly force, the self-defense instruction should be given
only when the evidence shows:
(1) an absence of aggression or provocation on the part of the
defender; (2) a real or apparently real necessity for the defender
to kill in order to save himself from an immediate danger of
serious bodily injury or death; (3) a reasonable cause for the
defendant’s belief in such necessity; and (4) an attempt by the
defendant to do all within his power consistent with his personal
safety to avoid the danger and the need to take a life. Thomas, 161
S.W.3d at 379 (citing State v. Chambers, 671 S.W.2d 781,783
(Mo. banc 1984)).
The evidence, viewed in the light most favorable to Appellant,
establishes that Joslin had physically assaulted Appellant throughout the course
of the evening. Joslin then forced Appellant to perform fellatio. After the
fellatio, Joslin permitted Appellant to leave the bedroom. Joslin then told
Appellant that he would make him do it again in the morning. Appellant went
to the kitchen and got a knife. He walked into Joslin’s bedroom with the
intention of letting Joslin know he was not going to touch him again. Joslin
was lying on the bed with his eyes shut while Appellant stood over him.
Joslin opened his eyes and gave Appellant a “look.” Appellant then stabbed
Joslin multiple times.
Appellant contends that, based upon this evidence, the jury should
have been permitted to determine the reasonableness of his actions.
Appellant emphasizes the circumstances preceding the stabbing, particularly
that Joslin was twice his size, had been physically assaulting him all evening,
had just forced Appellant to perform fellatio, and was threatening to make him
do it again in the morning. Although such facts suggest Appellant had a reason
to fear Joslin, they do not demonstrate a real or apparent necessity for Appellant
to exert deadly force against Joslin in order to save himself from an
immediate danger of serious bodily injury, death, or a forcible felony.
For a person to be justified in using deadly force to protect oneself
from the commission of a forcible felony, “the person must reasonably believe
that the felony is actually occurring or is imminent.” State v. Clinch, 335
S.W.3d 579, 587 (Mo. App. W.D. 2011). To use deadly force, there must be
“some affirmative action, gesture, or communication by the person feared
indicating the immediacy of danger, the inability to avoid or avert it, and the
necessity to use deadly force as a last resort.” Fisher, 359 S.W.3d at 119
(internal quotation omitted). The use of deadly force, therefore, requires
something more than fear. Id.
The circumstances of this case do not establish the requisite imminence
of a forcible felony to justify Appellant’s use of deadly force. Appellant did
not use deadly force to protect himself during the sodomy or to escape after
13

Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 13 of 16

the sodomy occurred. Rather, after being permitted to exit the bedroom,
Appellant chose to go to the kitchen, grab a knife, and return to threaten
Joslin, who was lying on the bed with his eyes closed. Appellant then stabbed
Joslin multiple times after Joslin opened his eyes and gave Appellant “that
look.” Thus, the altercation between Appellant and Joslin had ended prior to
Appellant's use of deadly force.
Furthermore, the giving of a look does not indicate the immediacy of
danger. Appellant contends that the look in the context of the facts preceding
the sodomy and Joslin’s threat that he would make Appellant “do it again in
the morning” indicate Appellant had a reasonable belief that there was an
imminent risk Joslin would sodomize him again. Such circumstances, however,
do not negate the fact that Joslin permitted Appellant to leave the bedroom
following the sodomy. Appellant then remained in the front room alone and
unrestrained while Joslin returned to the bedroom, lay down on the bed and
closed his eyes. Thus, while Appellant may have feared the look Joslin gave
him, it occurred after Appellant chose to return to the bedroom and confront
Joslin, and therefore, did not constitute conduct by Joslin indicating the
immediacy of danger required to justify the use of deadly force.
Doc. 11-3 at 4-10.
After careful review, the Court finds that Petitioner’s broad claims here fail to allege facts
that meet the high burden required to receive federal habeas review on a state-court evidentiary
ruling. See Lannert, 321 F.3d at 754 (the refusal of a self-defense instruction did not result in a
miscarriage of justice or omission inconsistent with the demands of fair procedure under
Missouri law). Ground Eight is denied.
E. Grounds Four, Five, Six, Seven, Nine, and Ten: Procedurally Defaulted
In his fourth ground, Petitioner alleges trial counsel was ineffective for failing to
investigate all of the documents needed for an expert witness. In his fifth ground, Petitioner
alleges the prosecutor committed misconduct by “endorsing” jurors that he knew. In his sixth
ground, Petitioner alleges trial counsel was ineffective for failing to object to the trial court’s
failure to inquire about the impartiality of the venire. In his seventh ground, Petitioner alleges
the trial court erred by excluding the contents of a voicemail made by the victim. In his ninth
ground, Petitioner alleges trial counsel was ineffective for failing to object to the verdict
directors for murder and armed criminal action. In his tenth ground, petitioner alleges trial
counsel was ineffective for being “objectively deficient.”
These grounds Petitioner raises in his federal petition were not properly presented to the
state courts. As noted above, a petitioner must exhaust state remedies. In other words, to avoid
14
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 14 of 16

procedurally defaulting on a claim, a federal habeas petitioner must have first fairly presented the
substance of the claim to the state courts to afford the state courts a fair opportunity to apply
controlling legal principles to the facts pertinent to the claim. Wemark v. Iowa, 322 F.3d 1018,
1020-21 (8th Cir. 2003) (citation omitted); see also Baldwin v. Reese, 541 U.S. 27, 29 (2004). A
claim has been fairly presented when a petitioner has properly raised the same factual grounds
and legal theories in the state Courts that he is attempting to raise in his federal petition. Wemark,
322 F.3d at 1021 (internal quotation marks and citations omitted). Claims that have not been
fairly presented to the state courts are procedurally defaulted. Id. at 1022 (quoting Gray v.
Netherland, 518 U.S. 152, 161-62 (1996)); Smith v. Groose, 998 F.2d 1439, 1441 (8th Cir. 1993)
(citation omitted) (holding that failure to comply with state procedural requirements “serves as
an adequate and independent state procedural bar to review”).
A federal court may not review procedurally defaulted claims “unless the prisoner can
demonstrate cause for the default and actual prejudice as a result of the alleged violation of
federal law, or demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.” Coleman, 501 U.S. at 750. To demonstrate cause, a petitioner must
show that “some objective factor external to the defense impeded [the petitioner’s] efforts to
comply with the State’s procedural rule.” Murray v. Carrier, 477 U.S. 478, 491 (1986). To
establish prejudice, a petitioner must demonstrate that the claimed errors “worked to his actual
and substantial disadvantage, infecting his entire trial with error of constitutional dimensions.”
United States v. Frady, 456 U.S. 152, 170 (1982); Ivy v. Caspari, 173 F.3d 1176 (8th Cir. 1999)
(noting standard in plea context). Lastly, in order to assert the fundamental miscarriage of
justice exception, a petitioner must “‘present new evidence that affirmatively demonstrates that
he is innocent of the crime for which he was convicted.’” Murphy v. King, 652 F.3d 845, 850
(8th Cir. 2011) (quoting Abdi v. Hatch, 450 F.3d 334, 338 (8th Cir. 2006)).
After careful review of the record, Petitioner’s allegations fail to establish a substantial
claim, nor does Petitioner establish cause to excuse his procedural default.
Petitioner fails also to show that a fundamental miscarriage of justice will result if his
defaulted claim is not considered. See Murphy, 652 F.3d at 850 (a petitioner must present new
evidence that affirmatively demonstrates that he is actually innocent of the crime for which he
was convicted in order to fit within the fundamental miscarriage of justice exception).

15
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 15 of 16

Further, to the extent Petitioner seeks relief under Martinez v. Ryan, any such claim fails
procedurally and/or because Petitioner fails to establish that the claims are “substantial”
inasmuch as his allegations are “wholly without factual support.” 566 U.S. 1, 14-16 (2012).3
Additionally, on review of the record, including the evidence admitted at trial as detailed in
Ground One, Petitioner cannot establish prejudice because the evidence of guilt was
overwhelming.
Here, Petitioner has not shown good cause and actual prejudice to overcome his default,
nor has he established a fundamental miscarriage of justice or the right to relief under Martinez.
The remaining grounds are denied.
VI.

Certificate of Appealability
Under 28 U.S.C. § 2253(c), the Court may issue a certificate of appealability only “where

a petitioner has made a substantial showing of the denial of a constitutional right.” To satisfy
this standard, Petitioner must show that “reasonable jurists” would find the district court ruling
on the constitutional claim(s) “debatable or wrong.” Tennard v. Dretke, 542 U.S. 274, 276
(2004). Because Petitioner has not met this standard, a certificate of appealability will be denied.
VII.

Conclusion
For the foregoing reasons, Petitioner’s petition for writ of habeas corpus pursuant to 28

U.S.C. § 2254 is DENIED, a certificate appealability is DENIED, and this case is DISMISSED.
IT IS SO ORDERED.
/s/ Howard F. Sachs
HOWARD F. SACHS
UNITED STATES DISTRICT JUDGE
DATED: April 3, 2020

3 To establish “cause” to overcome procedural default under Martinez, a petitioner must show: (1) the
underlying ineffective assistance of trial counsel claim is “substantial,” (2) the “cause” consisted of there being no
counsel or ineffective counsel during the post-conviction relief proceeding, (3) the state post-conviction relief
proceeding was the initial review proceeding, and (4) state law required (or forced as a practical matter) the
petitioner to bring the claim in the initial review collateral proceeding. Trevino v. Thaler, 133 S. Ct. 1911, 1918
(2013).

16
Case 4:19-cv-00724-HFS Document 16 Filed 04/03/20 Page 16 of 16

Additional material
from this filing is
available in the
Clerk's Office.

